May 4, 2010

ROSS PHILO
EXECUTIVE VICE PRESIDENT AND CHIEF INFORMATION OFFICER

JOHN T. EDGAR
VICE PRESIDENT, INFORMATION TECHNOLOGY SOLUTIONS

DEBORAH J. JUDY
DIRECTOR, INFORMATION TECHNOLOGY OPERATIONS

CHARLES L. MCGANN
MANAGER, CORPORATE INFORMATION SECURITY

SUBJECT: Audit Report – Certification and Accreditation Process
        (Report Number IS-AR-10-008)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
Certification and Accreditation (C&A) process (Project Number 09RG032IS000). The
objective was to determine whether the C&A process for critical applications is effective
in identifying and mitigating risks in a timely manner. This audit addresses operational
risk. See Appendix A for additional information about this audit.

Postal Service policy requires management to complete the C&A process for all
sensitive-enhanced,1 sensitive,2 and critical information resources to include
certification, accreditation, and approval before deployment into the production
environment. This formalized process ensures an application has adequate security
controls to manage risk throughout the application’s life cycle. Key objectives of the
C&A process are to assess threats, define security requirements and controls, test
security solutions, and evaluate the security controls and processes for the application.

Conclusion

The Postal Service’s implementation of the C&A process for critical applications is not
effective in identifying and mitigating risks in a timely manner. Management can
strengthen the C&A process by providing Corporate Information Security (CIS) the
authority necessary to ensure the process is completed for critical applications before
1
  Handbook AS-805, Section 3-2.3.2, Sensitive-Enhanced Information – includes hardcopy or electronic information
or material that is not designated as classified but warrants or requires enhanced protection.
2
  Handbook AS-805, Section 3-2.3.3, Sensitive Information – includes hardcopy or electronic information or material
that is not designated as classified or sensitive-enhanced but warrants or requires protection.
Certification and Accreditation Process                                                               IS-AR-10-008



deployment, applications are recertified when required, and high residual risks3 are
mitigated.4 Further, management should ensure C&A documentation is maintained in a
central location and the C&A information is updated in the


We consider two findings identified in this audit report – C&A Process and C&A
Documentation and Maintenance – as repeat findings of similar issues identified in prior
U.S. Postal Service Office of Inspector General (OIG) reports.5 Management agreed
with the prior findings and, subsequently, closed the related recommendations in their
formal tracking system. See Prior Audit Coverage for additional information related to
these reports.

C&A Process

Management deployed at least 226 applications, classified as critical to Postal Service
operations, into production before completing the required C&A process. In addition,
management did not recertify applications within required timeframes. Policy7 requires
recertification for critical applications every 3 years, unless the application must comply
with Payment Card Industry (PCI) Data Security Standard (DSS)8 requirements, when
annual recertification is required.

Management classified 77 production applications as critical to Postal Service
operations.9 The following table displays the C&A process status for the 77 critical
production applications.




3
  Residual risk is the risk that remains after management has taken action to reduce the impact and likelihood of an
adverse event, including control activities in responding to a risk. If the risks are categorized as high, the risk must be
mitigated by using a continuous process that reduces risk by implementing cost-effective security measures.
4
  We calculated a non-monetary impact of approximately $360 million for data at risk of loss
                                                             application. See Appendix C for the non-monetary impact
calculation.
5
  OIG report Information Security Assurance Process (Report Number IS-AR-06-009, dated May 4, 2006) and report
Information Systems Disaster Recovery Process (Report Number IS-AR-04-004, dated March 10, 2004).
6
  We identified 22 applications that were placed in production without completed C&As – the eight In Progress, nine
Not Started (see Table 1), and five of the sample applications we reviewed (see Table 3). However, this list may not
be all inclusive as we did not perform a comprehensive review of all 77 critical applications.
7
  Handbook AS-805, Section 8-4.1, What the C&A Process Covers, and Section 8-5.7.9, Re-Initiate C&A.
8
  The PCI DSS was developed to encourage and enhance cardholder data security and facilitate the broad adoption
of consistent data security measures globally. As of September 5, 2006, the Postal Service was required to comply
with these standards.
9
  A classification of critical is given to applications classified as critical to Postal Service operations. If the application
supports one of six functions – for example, protecting customer or employee life, safety, or health – the application
will receive a critical classification.



                                                               2
Certification and Accreditation Process                                                       IS-AR-10-008




                                     Table 1: C&A Process Status


                                  C&A Process Status                     Applications
                            Completed                                          60
                            In Progress                                         8
                            Not Started                                         9
                            Total                                              77

In addition, 23 of the 60 applications with completed C&As were overdue for
recertification. Seven of the 23 must comply with PCI annual recertification
requirements. See Appendix D for a complete list of applications in each category.

We judgmentally selected eight applications, from the 60 with completed C&As, for
further detailed review. Five of the eight applications were deployed into production
before completing the C&A process.

The CIS is responsible for managing the C&A process;10 however, CIS does not have
the authority necessary to enforce and execute the responsibilities when dealing with
individuals outside the CIS reporting structure or whose positions are more senior within
the organization. Further, policy does not require C&A training for the vice presidents,
executive sponsors, or portfolio managers who are involved in the C&A process. As a
result, these individuals may not be aware of their role and responsibility when
conducting the C&A or understand the magnitude of the risks they are willing to accept
on behalf of the Postal Service. In addition, portfolio managers and executive sponsors
are not held accountable for incorporating the C&A process and the required
documentation into the application’s Technology Solutions Life Cycle (TSLC) process.

In response to a similar finding in a prior audit report,11 management agreed to
complete the Information Security Assurance (ISA)12 process for applications already
placed in production. On May 4, 2006, management closed the related recommendation
in their formal tracking system; however, because this issue continues to exist, we
consider this a repeat finding. When the C&A process is incomplete, management
increases the potential for disclosure of sensitive data that may negatively impact the
Postal Service brand. See Appendix B for our detailed analysis of this topic.


10
   Handbook AS-805, Section 2-2.4 (e.), Manager, Corporate Information Security Office.
11
   U.S. Postal Service Office of Inspector General (OIG) report, Information Security Assurance Process (Report
Number IS-AR-06-009, dated May 4, 2006).
12
   In 2008, CIS changed the ISA process to the C&A process to align it with terminology other federal agencies use.
The C&A process and required documentation is incorporated into the TSLC process and should be conducted
concurrently with the development and deployment of new information resources.




                                                         3
Certification and Accreditation Process                                                    IS-AR-10-008




We recommend the executive vice president and chief information officer:

1. Provide Corporate Information Security the authority necessary to enforce and
   execute the responsibilities for managing the Certification and Accreditation process.

We recommend the executive vice president and chief information officer direct the
manager, Corporate Information Security, to:

2. Update Handbook AS-805, Information Security, to require mandatory annual
   training on the Certification and Accreditation process for all portfolio managers.

3. Ensure all portfolio managers receive mandatory training regarding their role,
   responsibility, and accountability for implementing and reinitiating the Certification
   and Accreditation process. This training should also be made available to all
   executive sponsors.

4. Hold portfolio managers accountable to complete the Certification and Accreditation
   process within the Technology Solutions Life Cycle prior to implementing critical
   applications into the production environment.

5. Complete the Certification and Accreditation process for all critical applications
   currently in production, as required by Handbook AS-805, Information Security.

6. Ensure the portfolio managers work with the executive sponsors to initiate the
   recertification process for critical applications assigned to their functional areas as
   required by Handbook AS-805, Information Security.

Unmitigated Residual Risks

Management could not provide evidence that all high residual risks were mitigated for
critical applications in production as agreed to during the C&A process. Specifically,
management could not provide documentation to indicate risks were mitigated for seven
of the eight production applications reviewed. For example, the risk mitigation plan
(RMP) for the                  listed multiple high-risk vulnerabilities that were scheduled
to be mitigated by October 31, 2007. However, management could not provide
documentation to show they mitigated these risks.

Policy13 allows the portfolio managers and executive sponsors to review the RMP,
accept the residual risks, and approve the application for deployment. However, there is
no formal, centralized mechanism to track the status of residual risks identified in the
RMP. Further, no single entity is held accountable for tracking these risks and ensuring
they are resolved as stated in the RMP and recertification letter. As a result,

13
     Handbook AS-805, Section 8-5.7.1, Executive Sponsor and Portfolio Manager Make Decision to Deploy.



                                                         4
Certification and Accreditation Process                                    IS-AR-10-008



management cannot ensure critical production applications are adequately protected to
prevent security threats and vulnerabilities. Unauthorized disclosure or misuse of
information could result in significant financial loss that may have a negative impact on
the Postal Service brand. We quantified the risks associated with the                   at
approximately $360 million in non-monetary

            See Appendix B for our detailed analysis of this topic and Appendix C for
our non-monetary impact calculation.

We recommend the executive vice president and chief information officer direct the
manager, Corporate Information Security, to:

7. Develop a formal, centralized mechanism to track the status of all unmitigated
   residual risks identified in the applications’ risk mitigation plan.

8. Input unmitigated residual risks identified in the applications’ risk mitigation plan into
   the formal, centralized tracking mechanism and track the risks through resolution.

We recommend the manager, Corporate Information Security, coordinate with the vice
president, Information Technology Solutions, and the director, Information Technology
Operations, to:

9. Work with executive sponsors to resolve unmitigated residual risks identified in the
   risk mitigation plans and recertification letters associated with the critical
   applications.

C&A Documentation and Maintenance

Management is not consistently maintaining C&A documentation in the TSLC Artifacts
and CIS Team Documents libraries or updating the status of key C&A documentation in
the EIR.

       The TSLC Artifacts and CIS Team Documents libraries are repositories that
        contain finalized project deliverables for all technology solutions. At present,
        management maintains C&A documentation in both locations. However, we were
        unable to locate a completed C&A documentation package in either location for
        the 60 applications listed in the EIR as having completed the C&A process.
        Policy does not designate either library as the official repository for storing the




                                              5
Certification and Accreditation Process                                                   IS-AR-10-008



         C&A documentation. Policy also does not assign a single entity responsible for
         maintaining the C&A documentation.
        The EIR is a repository that provides centralized access to the application’s
         information to include designated fields for entering key information instrumental
         to the C&A process. However, information entered in the fields was inconsistent,
         inaccurate, or missing. Although management attempted to assign responsibility
         for maintaining application information in the EIR in policy;15 no single entity is
         held accountable for updating and validating information related to the C&A
         process.

Management agreed to add the C&A documentation to an online repository in a
previous OIG report.16 In addition, management agreed to resolve inconsistencies in the
EIR data in two previous reports.17 Although management has closed each of the
applicable recommendations from the prior reports, these issues continue to exist.
Therefore, we consider these issues repeat findings. By resolving these issues,
management could simplify the C&A process – making the process more effective and
efficient – and ensure gaps in the C&A process are identified to make timely and
credible decisions for securing and managing these applications. See Appendix B for
our detailed analysis of this topic.

We recommend the executive vice president and chief information officer direct the
manager, Corporate Information Security, to:

10. Establish policy to designate a central repository for storing the Certification and
   Accreditation documentation.

11. Update Handbook AS-805, Information Security, to designate a single entity
   responsible for uploading the Certification and Accreditation information in the
   central repository for all critical applications.

12. Input the Certification and Accreditation documentation for all critical applications
    into the central repository.

13. Update Handbook AS-805, Information Security, to designate a single entity for
    updating and validating the Certification and Accreditation information in the
    Enterprise Information Repository for all critical applications.

Management’s Comments


15
   Handbook AS-805, Section 2-2.11, Portfolio Managers, Section 2-2.29, Information Systems Security Officers,
Section 3-3.3, Recording Information Resource Classification and Categories of Information Processed, Section 9-
9.3, Relationship of Criticality, Recovery Time Objective, and Recovery Point Objective, and Section 9-9.5,
Information Resource Recovery and Reconstitution.
16
   OIG report Information Security Assurance Process (Report Number IS-AR-06-009, dated May 4, 2006).
17
   OIG report Information Security Assurance Process (Report Number IS-AR-06-009, dated May 4, 2006) and report
Information Systems Disaster Recovery Process (Report Number IS-AR-04-004, dated March 10, 2004).



                                                       6
Certification and Accreditation Process                                   IS-AR-10-008



Management agreed with the 13 recommendations. In response to recommendation 1,
management stated that the CIS manager has the responsibility to manage and
administer the C&A process. In addition, it is the manager, Corporate Information
Technology (IT) Portfolios, and the director, IT Operations’, responsibility to perform the
task assignments. Management believes this line of authority is in place and, therefore,
requested closure of this recommendation.

To address recommendations 2 and 3, management will update Handbook AS-805,
Information Security, to reflect the requirement for the manager, Corporate IT Portfolios,
and the director, IT Operations, to require mandatory training on the C&A process for all
portfolio managers and staff. Management will provide this training annually. The
targeted completion dates are December 31, 2010, for recommendation 2 and
September 30, 2010, for recommendation 3.

In response to recommendation 4, management stated that proper completion of the
C&A requirements are already part of the TSLC; however, management will add
additional compliance monitoring to ensure the TSLC process is followed. Targeted
completion date is immediately for new critical application production implementations.

To address recommendations 5 and 6, management will complete the C&A process,
including the recertification process, for all critical applications. The exceptions will be
the various Enterprise Data Warehouse (EDW) Datamarts that are covered by the EDW
Infrastructure Impact Assessment. The targeted completion date for both
recommendations is March 31, 2011.

To address recommendations 7 through 9, CIS will research and implement an
automatic tracking system to enter all unmitigated risks cited in the application’s risk
mitigation plan. Once successfully implemented, CIS will use the automatic tracking
system functionality to notify the manager, Corporate IT Portfolios, and the director, IT
Operations, of their responsibilities to perform the task assignments and work with the
executive sponsor to resolve unmitigated risks associated with the application identified
in the risk mitigation plan. The targeted completion date for these recommendations is
December 31, 2010.

In response to recommendations 10 through 12, CIS will update Handbook AS-805-A,
Information Resource Certification & Accreditation Process, to reflect the requirement
for the manager, Corporate IT Portfolio, and the director, IT Operations, to designate
and utilize the TSLC Artifacts library as the central repository for storing C&A
documentation. Portfolio program managers will also be responsible for, and will input,
C&A information to the TSLC Artifacts Library. The targeted completion date for
recommendations 10 and 11 is December 31, 2010. The targeted completion date for
recommendation 12 is immediately per existing TSLC responsibilities.

In their original response to recommendation 13, management stated Handbook AS-
805-A, Information Resource Certification & Accreditation Process, Section 2-6 (g)



                                             7
Certification and Accreditation Process                                 IS-AR-10-008



currently outlines this requirement. Specifically, policy states executive sponsors are
responsible for ensuring the C&A documentation package is securely stored and kept
current for the information resource life cycle. Management stated this process is
currently in place and, therefore, requested closure of this recommendation.

See Appendix E for management’s comments in their entirety.

In a subsequent discussion with the OIG, management amended their comments to
recommendation 13 to state that they will update the handbook to indicate the portfolio
program manager is responsible for updating the EIR with status of the C&A for all
critical applications. The targeted completion date is December 30, 2010.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
their corrective actions should resolve the issues identified in the report. However, we
do not agree that recommendation 1 should be closed at this time. We support
management’s decision to designate the manager, CIS, be responsible for executing
the C&A process. However, it is imperative that the manager also be given the authority
to enforce the requirements with individuals outside his work group. We believe a
reliable gauge to measure the success of this effort will be the CIS manager’s ability to
successfully complete the C&A process for all critical applications by the March 31,
2011, targeted completion date specified in management’s response to
recommendation 5. This recommendation will remain open until management can
provide evidence that the intent of the recommendation has been met.

The OIG considers recommendations 1 through 13 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective action is completed. These recommendations should not be closed in
the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at 703-248-2100.

      E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc:       Sally K. Haring



                                            8
Certification and Accreditation Process                                   IS-AR-10-008



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service policy requires management to complete the C&A process for all
sensitive-enhanced, sensitive, and critical information resources to include certification,
accreditation, and approval before deployment into the production environment. This
formalized process ensures an application has adequate security controls to manage
risk throughout the application’s life cycle. Key objectives of the C&A process are to
assess threats, define security requirements and controls, test security solutions, and
evaluate the security controls and processes for the application.

A C&A documentation package is required for the information resource, which includes
a consolidation of the business impact assessment (BIA), vulnerability and risk
assessment, security plan, contingency plan, and the security test and evaluation
(ST&E) plan. To determine the criticality of the application, a BIA is prepared to ensure
compliance with privacy requirements, sensitivity and criticality, and appropriate security
requirements.

CIS is responsible for managing the C&A process and providing guidance on
application security. The Corporate Information Technology and Field Applications
Portfolios are responsible for supporting executive sponsors in developing the
application and completion of the C&A process. After completing the certification
process, the executive sponsor and the portfolio manager may decide to deploy the
application even though high and/or moderate unmitigated residual risks remain.
However, the executive sponsor and portfolio manager should jointly determine whether
the residual risks are acceptable, and, if so, prepare and sign a conditional acceptance
letter and approve the application for deployment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the C&A process for critical applications is
effective in identifying and mitigating risks in a timely manner. To accomplish this
objective, we reviewed the status of the C&A process for critical applications assigned a
risk criticality of “high” and deployed into production. Specifically, we reviewed critical
applications in the following C&A categories:

     Completed.
     In progress.
     Not started.
     Recertification in process.

To further review the status of the C&A process, we judgmental selected a sample of
eight applications from the 60 critical applications identified as having completed C&As.




                                             9
Certification and Accreditation Process                                  IS-AR-10-008



The table below lists the eight applications in our sample and identifies the applications
that are in-scope for PCI and Sarbanes Oxley (SOX) compliance.

                                 Table 2: Sampled Applications




We reviewed C&A documentation included in the TSLC Artifacts and CIS team
documents libraries for all critical production applications. The documentation reviewed
included the BIA, security plan, ST&E plan, contingency plan, RMP, risk assessment
and vulnerability scans, certification letter, accreditation letter, acceptance letter,
conditional C&A letter, and recertification letter, if applicable. We also reviewed the
residual risks identified for the eight applications selected to determine whether
management mitigated risks according to the RMP and recertification letter. In addition,
we reviewed management’s process for tracking the residual risks identified for
applications deployed into production.

Finally, we reviewed applicable C&A policies, procedures, roles and responsibilities,
and interviewed key officials representing CIS, Corporate IT Portfolios, the Field
Applications Portfolio, Business Continuance Management, and business owners from
multiple functional areas.

We conducted this performance audit from September 2009 through May 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We reviewed computer
generated data from the EIR and determined the data was unreliable for the purpose of
conducting this audit. We discussed our observations and conclusions with
management on March 26, 2010, and included their comments where appropriate.




                                              10
Certification and Accreditation Process                                          IS-AR-10-008




                                    PRIOR AUDIT COVERAGE

      Report            Report            Final Report
       Title            Number                Date Report                     Results
   Information       IS-AR-06-009         May 4, 2006      Although the Postal Service has
   Security                                                made progress in clearing the
   Assurance                                               backlog of ISA projects and
   Process                                                 implemented a comprehensive
                                                           vulnerability testing program, further
                                                           effort is needed to ensure the ISA
                                                           processes are completed timely.
                                                           Management should address issues
                                                           related to EIR data accuracy,
                                                           consistency, reliability, availability,
                                                           and the need for a central location
                                                           for storage. The report also noted
                                                           managers had the ability to deploy
                                                           systems before completing the ISA
                                                           process. We made three
                                                           recommendations to the Postal
                                                           Service to complete the required
                                                           deliverables for the applications
                                                           identified as having missing
                                                           documentation, to expedite the
                                                           population of the online repository,
                                                           and validate the reliability of the EIR
                                                           data. Management agreed with and
                                                           closed the recommendations in their
                                                           formal tracking system on May 4,
                                                           2006; September 27, 2007; and
                                                           December 8, 2006, respectively.
   Information       IS-AR-04-004         March 10, 2004    Managers do not always update EIR
   Systems                                                  data elements for disaster recovery.
   Disaster                                                 Data elements such as the BIA,
   Recovery                                                 application disaster recovery plan
   Process                                                  status, and testing information were
                                                            missing or inaccurate. We
                                                            recommended the Postal Service
                                                            develop a process to enforce current
                                                            policy to update the EIR data and
                                                            improve the quality of data currently
                                                            maintained in the EIR. Management
                                                            agreed and closed the
                                                            recommendation in their tracking
                                                            system on November 5, 2004.




                                                   11
Certification and Accreditation Process                                                        IS-AR-10-008



                                 APPENDIX B: DETAILED ANALYSIS

C&A Process

Management deployed at least 22 critical applications into production before completing
the C&A process. In addition, management did not recertify applications as required.
Management identified 77 production applications with a critical classification of “high.”
See Appendix D for details on the 77 critical applications.

Policy18 requires management to complete the full C&A process for all critical resources,
culminating with the certification, accreditation, and approval documents for deploying
the information resource. All three documents are required before placing the
application into production. Policy19 also requires recertification for critical applications
every 3 years and every year for applications that must comply with the PCI DSS
requirements.

We judgmentally sampled eight applications for further review from the 60 critical
applications with a completed C&A. As table 3 illustrates, management deployed five
applications into production –
before completing the C&A process. In addition, the recertification is past due for five
applications –

                            Table 3: Sampled Applications C&A Status


                                                                                      Deployed
                        Deployment         C&A Process          Recertification     Prior to C&A
          Application       Date       Completion Date20          Due Date*          Completion
                  05-27-1995                 07-09-2009 07-09-2012
               10-0          1-2005          03-19-2008           03-19-2009 X
                 10-01-1987                  06-17-2009 06-17-2014
                    07-30-     2007 01-15-2008                    01-15-2009 X
                10-01-1985                   06-17-2009 06-17-2014
                    05-12-1999               03-19-200321         07-25-2007 X
                    04-26-     2001 11-18-2008                    11-18-2009 X
             02-29-2000                         None              02-24-2008 X
         *Shading has been added to identify those applications whose recertification dates are past due.

Although responsible for managing the C&A process, CIS does not have the authority
necessary to enforce and execute the responsibilities when dealing with individuals
outside the CIS reporting structure or whose positions are more senior within the
18
   Handbook AS-805, Section 8-4.1, What the C&A Process Covers.
19
   Handbook AS-805, Section 8-5.7.9, Re-Initiate C&A.
20
   The EIR lists                              as legacy applications. The Postal Service placed these applications
into production before the current C&A process. As a result, the original certification documentation was unavailable
for these applications.
21
   The EIR did not list a C&A Process Completion Date for              ; however, the acceptance of accreditation
letter for            was dated March 19, 2003.



                                                          12
Certification and Accreditation Process                                           IS-AR-10-008



organization. Further, policy does not require C&A training for the vice presidents,
executive sponsors, or portfolio managers who are involved in the C&A process. As a
result, these individuals may not be aware of their role and responsibility when
conducting the C&A process or understand the magnitude of the risks they are willing to
accept on behalf of the Postal Service. Over a 5-month period in 2009, CIS offered C&A
training to managers involved in developing applications in an effort to educate them on
their roles and responsibilities in the C&A process. However, manager attendance was
optional and, as a result, only few attended.

In addition, portfolio managers and executive sponsors are not held accountable for
incorporating the C&A process and required documentation into the TSLC process.
Each of the seven phases of the TSLC has corresponding security activities that
management must perform to maintain a secure environment. The C&A process and
required documentation is incorporated into the TSLC process and conducted
concurrently with the development and deployment of new information resources.

                Table 4: TSLC Phases and Required C&A Documentation

             TSLC Phases                  C&A Required Documents
             Initiate and Plan            EIR
             Requirements BIA                 Questionnaire
                                          C&A Recertification Letter, Risk Assessment,
             Analysis and Design          and Security Plan
             Build Not                        Applicable
             System Integration Test      ST&E Plan and conduct security test
                                          Accreditation Letter, Risk Acceptance Letter,
                                          Certification Letter, RMP, C&A Acceptance
             Customer Acceptance Test     Letter
             Release Not                      Applicable

Because these issues continue to exist, we consider them repeat findings. As a result,
management increases the risk for potential disclosure of sensitive data such as credit
card data or personal identifiable information that may negatively impact the Postal
Service brand. See Appendix A, Prior Audit Coverage, for details on the prior OIG
reports.

Unmitigated Residual Risks

Management could not provide evidence that high residual risks were mitigated for
critical applications in production as agreed to during the C&A process. Once the C&A
process is complete, the portfolio manager reviews the certification letter and the
supporting C&A documentation and escalates security concerns or prepares a RMP for
any residual risks rated “medium” or “high”, recommending whether the risks should be
accepted, transferred or further mitigated. If a documented vulnerability will not be
mitigated, the portfolio manager and executive sponsor should prepare and sign an



                                                 13
Certification and Accreditation Process                                                          IS-AR-10-008



acceptance of responsibility letter. In addition, the portfolio managers should work jointly
with the executive sponsor to review the C&A documentation package, accept the
residual risk, and approve the application for production or return the application to the
applicable life cycle phase for rework.

Management could not provide documentation indicating they mitigated risks for seven
of the eight production applications in our sample. For example:





















  Management can perform vulnerability scans to identify risks and to determine whether the residual risks
associated with the application are mitigated. Vulnerability scans evaluate applications for vulnerabilities and
compliance with Postal Service information security policies and standards. Scans are recommended for all
applications and required for applications that require PCI compliance.



                                                           14
Certification and Accreditation Process                                  IS-AR-10-008



In January 2009, CIS began tracking the RMP for critical applications by using a
spreadsheet maintained on a desktop computer. The spreadsheet is an informal,
decentralized mechanism that does not afford portfolio managers and executive
sponsors access to the RMP information. For example, six of the eight applications in
our sample are not currently included on the RMP tracking spreadsheet. The CIS
manager receives the spreadsheet monthly and, in turn, provides a copy to the vice
president, IT Business Solutions. While we commend management’s initiative, no single
entity is held accountable for tracking these risks and ensuring they are resolved as
stated in the RMP and recertification letter. As a result, management cannot ensure
critical production applications are adequately protected to prevent security threats and
vulnerabilities.




C&A Documentation and Maintenance

Management is not consistently maintaining C&A documentation in the TSLC Artifacts,
and CIS Team Documents libraries or updating the status of key C&A documentation in
the EIR. Currently, management maintains C&A documentation in two locations – the
TSLC Artifacts and CIS Team Documents libraries. Although, we found C&A documents
in these libraries, we were unable to locate a complete C&A documentation package for
any of the 60 applications identified as having completed the C&A process. Specifically,
of the 60 applications, we could not locate the following documents in either of the two
libraries:

                             Table 5: Missing C&A Documentation
                                                Number of
                                             Applications with
                        C&A Documents       Missing Documents    Percentage
                   Approved BIA                    21               35
                   Security Plan                   50               83
                   Risk Assessment                 53               88

                   ST&E Plan                       50               83
                   Vulnerability Scan              58               97
                   Contingency Plan                35               58
                   Certification Letter            52               87
                   RMP 51                                           85
                   Acceptance Letter/Risk
                   Acknowledgment Letter           49               82
                   Accreditation Letter            53               88
                   Recertification Letter          51               85



                                              15
Certification and Accreditation Process                                                    IS-AR-10-008




Further, the following documents were missing for the eight applications in our sample:

                  Table 6: Missing C&A Documents – Sampled Applications


 C&A Documents*                                              Application Name


 Approved BIA
 Security Plan                  X                  X X
 Risk Assessment                                   XXX
 ST&E Plan                                    X X                                 X
 Vulnerability Scan         XX                                   X                X
 Contingency Plan                                                X                                        X
 Certification Letter       X                 X X                                                         X
 RMP                        X                 X
 Accreditation Letter       X                 X X                                                X        X
 Acceptance
 Letter/Risk
 Acknowledgment
 Letter/Conditional         X                 X X                                                         X
 Recertification
 Letter                               X         X                                 X                       X
*An ‘X’ indicates the document was missing for that application.

Policy23 does not designate either the TSLC Artifacts or CIS Team Documents library as
the official repository for storing the C&A documentation or assign a single entity
responsible for maintaining the C&A documentation. By maintaining the documentation
in a central location, management can simplify the C&A process, making it more
efficient and effective, and ensure gaps are identified, which will help protect critical
applications from security threats and vulnerabilities.

The EIR is a repository that provides centralized access to the application’s information
to include designated fields for entering key information instrumental to the C&A
process. However, information entered in the fields was inconsistent, inaccurate, or
missing. For example,









23
     OIG report Information Security Assurance Process (Report Number IS-AR-06-009, dated May 4, 2006).



                                                        16
Certification and Accreditation Process                                                     IS-AR-10-008







Policy24 states portfolio managers should ensure applications are entered in the EIR
and updated as required. The ISSOs should ensure the responsible project manager
records the sensitivity and criticality designation in the EIR. The initial determination of
criticality for an information resource is determined during the BIA process.
Management should update the EIR when the BIA is completed. While management
attempted to assign responsibility for maintaining accurate application information in the
EIR in policy, no single entity is held accountable for updating and validating information
related to the C&A process. Therefore, management cannot rely on the EIR information
to make timely and credible decisions for securing and managing these applications.

Because these issues continue to exist, we consider these repeat findings. See
Appendix A, Prior Audit Coverage, for details on the prior OIG reports.




24
  Handbook AS-805, Section 2-2.11, Portfolio Managers, Section 2-2.29, Information Systems Security Officers,
Section 3-3.3, Recording Information Resource Classification and Categories of Information Processed, Section 9-
9.3, Relationship of Criticality, and Recovery Time Objective, and Recovery Point Objective.



                                                        17
Certification and Accreditation Process                                                       IS-AR-10-008



                              APPENDIX C: NON-MONETARY IMPACT

The following presents an estimate of the potential costs the Postal Service could incur
due to
                    We based the total non-monetary impact of $359,984,152 on a
1 day average of                                ) multiplied by a cost of $62 per
transaction. The calculation assumes each transaction may contain at least one
element of sensitive and critical information when, in fact, each transaction could
contain more than one piece of sensitive and critical information.


                                                                  Costs per Record
                               Cost Category                   Affected as Reported by
                                                                 Ponemon Institute26
                        Detection and Escalation

                       Internal Investigation, Legal,
                                                                             $ 8
                           Audit, and Consulting

                                 Notification

                       Letters, Email, Telephone,
                                                                             $ 15
                      Published Media, and Website

                            Ex-Post Response

                        Mail, Email, Telephone (to
                           Internal Call Center),
                     Telephone (to Outsourced Call
                         Center), Legal Defense,                             $ 39
                          Criminal Investigations
                      (forensics), Public or Investor
                     Relations, Free or Discounted
                                 Services
                                   Total                                    $ 6227




25




   Ponemon Institute, LLC, Fourth Annual US Cost of Data Breach Study, dated January 2009. Ponemon Institute
conducts independent research on privacy, data protection, and information security policy.
27
   The Ponemon Institute study reports the total cost per breach as $202; however, $139 of the costs contributed to
lost business, which we determined is not applicable. These figures are exactly as those the Ponemon Institute
reported. We attribute the $1 difference ($63 versus $62) to rounding the figures within each category.



                                                         18
Certification and Accreditation Process               IS-AR-10-008




   APPENDIX D: C&A STATUS FOR 77 CRITICAL PRODUCTION APPLICATIONS




                                          19
Certification and Accreditation Process        IS-AR-10-008




                                          20
Certification and Accreditation Process        IS-AR-10-008




                                          21
Certification and Accreditation Process                        IS-AR-10-008




                           APPENDIX E: MANAGEMENT’S COMMENTS




                                          22
Certification and Accreditation Process        IS-AR-10-008




                                          23
Certification and Accreditation Process        IS-AR-10-008




                                          24
Certification and Accreditation Process        IS-AR-10-008




                                          25
